         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Special Report

Office of Energy Efficiency and
Renewable Energy's Integrated
Resource and Information System




DOE/IG-0905                      April 2014
                                  Department of Energy
                                    Washington, DC 20585

                                          April 3, 2014

MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on the "Office of Energy Efficiency
                         and Renewable Energy's Integrated Resource and Information System"

BACKGROUND

The Department of Energy's Office of Energy Efficiency and Renewable Energy's (EERE)
mission is to accelerate development and facilitate deployment of energy technologies and
market-based solutions that strengthen the Nation's energy security, environmental quality and
economic vitality. To help streamline its business processes and enhance communications
among employees, EERE initiated the development of the Integrated Resource and Information
System (IRIS) project in October 2012. EERE officials determined that a single information
technology (IT) solution was needed to replace approximately 119 existing systems and planned
to use a cloud computing platform – a type of computing technology in which most or all data
could be stored at the vendor's location – to support the effort. At the time of our review, EERE
had spent over $7 million on the project and planned to budget an additional $3.6 million for
IRIS through December 2014.

The Office of Inspector General received two complaints regarding the EERE IRIS development
effort. Both complaints alleged improprieties with contract and project management. Among
other things, it was alleged that officials managing the IRIS project ignored the Department's
structured capital planning and investment control process for IT investments and failed to
follow procurement and contracting guidelines and requirements. In addition, it was alleged that
the project lacked effective oversight controls to enable Federal managers to monitor progress
against baseline costs, schedules, performance and expected benefits, which resulted in
significant cost overruns and implementation delays without producing any results. In response,
we initiated a review to determine whether the IRIS system development effort was effectively
managed.

RESULTS OF AUDIT

Our review largely substantiated the allegations related to contract and project management. We
discovered that EERE had not effectively managed the development and implementation of
IRIS. In particular, EERE failed to follow the Department's structured capital planning and
investment control process and had not provided effective monitoring of the project.
                                                2


                                 Project Planning and Execution

We identified significant weaknesses related to IRIS project planning and execution, including a
lack of project plans, schedules and budgets; ineffective identification of user requirements; and
inadequate monitoring and controlling of changes to the system. We found that:

   •   Contrary to Federal and Department project management guidance, EERE spent at least
       $7 million to date on IRIS development without the benefit of formalized project plans,
       schedules or budgets. Such project management tools are important to establish a
       baseline and assess the status of major milestones, activities and deliverables to help
       ensure the development effort meets mission and business objectives in a timely and cost
       effective manner. Even though recommended by EERE staff, program officials did not
       develop a capital asset plan that could have provided budgetary and management
       information necessary for sound planning, management and monitoring of the project.
       Notably, EERE categorized funds being used for IRIS development as costs for other
       unrelated systems, thereby distorting the true cost of the project. The Office of
       Management and Budget personnel and the Department's Chief Information Officer were
       also not fully cognizant of EERE development activities and as such were unable to
       evaluate the effectiveness of those efforts and take corrective actions, as needed.
       Subsequent to our field work, EERE incorporated IRIS development baselines, cost
       estimates and completion dates into its Information Technology Service Office plan,
       which was approved in November 2013.

   •   Inadequate planning and identification of user requirements resulted in significant
       changes to the scope of the project and the acquisition of more software licenses than
       necessary. EERE intended to implement a commercial-off-the-shelf (COTS) product
       with total estimated integration costs of approximately $2.75 million. However, EERE
       spent $3.6 million on IRIS modifications, including more than $1.6 million to customize
       three IRIS modules by as much as an estimated 90 percent without a full understanding
       of user needs, cost and program impacts. EERE also purchased 1,000 software licenses
       at a cost of $1 million, of which less than 20 percent were used resulting in nearly
       $675,000 in unnecessary expenditures. This purchase occurred despite warnings from
       EERE staff regarding the risk of acquiring more licenses than necessary. In response to
       our review, EERE significantly reduced the number of software licenses.

   •   Various scope and schedule changes were made during IRIS execution without the
       benefit of a formal change control process. We identified various ad-hoc changes to the
       IRIS development effort that were made without formal approval or justification. In one
       instance, senior EERE officials decided to reduce the number of modules to be
       implemented while at the same time extending the schedule, without fully considering the
       impacts on the project cost/schedule.

                                         Cyber Security

In addition, EERE had not implemented key cyber security controls designed to protect IRIS and
the network on which it resided. For instance, EERE placed a module of the IRIS system into
                                                3


operation prior to receiving formal authority to operate and approval of corresponding cyber
security documentation. Although authority to operate the system was subsequently approved,
we noted that important account management, audit log and configuration management controls
still needed to be addressed. Our review also disclosed that EERE had not entered into an
agreement with the application's vendor prior to beginning use of the system to ensure that
acceptable service levels for both operations and security were agreed upon, a key control when
implementing cloud computing technology.

                                       Acquisition Issues

We identified troubling irregularities in aspects of the process used to select and manage the
contracts for the IRIS project. For example, the method used to select the IRIS software vendor
was suspect, raising questions of whether the selection was carried out in an appropriate manner.
We were told by management that the selection of the COTS product occurred after an
evaluation of various solutions. However, several officials we spoke with stated that they
believed the decision to use the selected software vendor was made prior to the preliminary
analysis being conducted. In addition, we determined that rather than using a competitive
selection process for services associated with IRIS development, EERE utilized an existing IT
support services contract for which the scope of work was initially limited to EERE's Golden
Field Office. However, development of IRIS was conducted at Headquarters and, as such,
extending the contract may not have resulted in the best value for the Government. Furthermore,
contrary to Department guidance, a senior EERE official inappropriately directed contractor
personnel to retain specific individuals to support the project.

                                      Contributing Factors

It became apparent during our review that staff informed EERE management officials that IRIS
was not being conducted in accordance with various project management requirements. Yet, the
officials decided not to take remedial action. We recognized that the issues identified during the
audit were exacerbated by the accelerated planning, development and deployment approach
utilized by EERE. By accelerating the IRIS project, EERE failed to place adequate attention on
implementing project management and cyber security requirements, guidance and best practices
that could have helped ensure successful system implementation. For instance, program officials
could have focused attention on ensuring that they followed the Department's Capital Planning
and Investment Control processes, as well as both Federal and Department cyber security
requirements.

Furthermore, we identified problems related to performance monitoring over the project.
Specifically, the lack of a defined governance structure to monitor performance and repeated
turnover of responsible project management personnel impeded the successful development and
implementation of IRIS. Also, many of the practices and requirements likely could have been
addressed early in the project had EERE management held open communication with the
Department's Information Technology Council. However, we established that the development
of IRIS was never formally communicated to the Council.
                                                4


                                   EERE Work Environment

In addition to issues previously identified, our review disclosed that problems with the work
environment and poor morale within EERE clearly had an impact on program operations,
including IRIS development efforts. Staff associated with the IRIS project told us they were
discouraged from providing constructive feedback to management. Furthermore, many
individuals we spoke with indicated they were pressured not to cooperate with the Office of
Inspector General and/or expressed fear of retaliation by senior management if they openly
discussed their concerns about the project. Despite these actions and what appeared to be an
unhealthy environment, the vast majority of EERE staff members we interviewed and/or sought
data from ultimately cooperated, and we did not observe any overt actions to frustrate our
review. That said, given the environment, we cannot be fully confident that we had access to all
information relevant to the IRIS project.

                                   Impacts and Path Forward

Although EERE anticipated realizing cost savings of $1 million by implementing all 12 IRIS
modules by the first quarter of Fiscal Year 2014, and retiring 119 existing systems, we found that
it had only implemented 3 of 12 modules and had not retired any of the existing systems.
Without a well-defined project planning and execution process that includes baselines and
deliverables, EERE cannot ensure that significant funds spent on IRIS and other future IT
projects are used in a cost effective manner. In addition, by introducing systems that have not
met the necessary cyber security requirements, the Department runs an increased risk that the
confidentiality, integrity and availability of systems and information could be compromised.
Furthermore, absent contractual agreements between the Department and cloud service
providers, the Department lacks assurance that acceptable performance levels and security will
be maintained. Finally, staff should be encouraged and feel free to provide constructive
feedback to management, without fear of reprisal. In preliminary comments on our report,
EERE officials noted that fraud awareness briefings had been provided to more than 800
individuals since the start of our review. While these briefings are certainly beneficial, it is
unclear to us that they alone will address work environment and/or morale issues within EERE.

The issues identified are similar to those reported during our review of Management Controls
over the Development and Implementation of the Office of Energy Efficiency and Renewable
Energy's Performance and Accountability for Grants in Energy System (OAS-RA-10-14, July
2010). Although management concurred with our prior report's recommendation to ensure that
effective project management practices are implemented as part of system development and
implementation efforts, the weaknesses discussed in our current report indicate that significant
additional work is needed. To address these issues, we made several recommendations that, if
fully implemented, should improve EERE's ability to manage future IT system development
projects, improve the security posture of IRIS and ensure that appropriate contract management
practices are conducted. We also made recommendations designed to facilitate a positive work
environment for EERE personnel. Finally, we believe that the Department should determine
whether any action should be taken against individuals responsible for the personnel and contract
management issues noted in our report. The report included recommendations to this effect.
                                             5


MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that it had initiated
corrective actions to address our recommendations. Management's comments and our response
are summarized and more fully discussed in the body of the report. Management's formal
comments are included in Appendix 3.

cc:    Deputy Secretary
       Under Secretary for Science and Energy
       Assistant Secretary for Energy Efficiency and Renewable Energy
       Chief of Staff
       Chief Information Officer
       General Counsel
SPECIAL REPORT ON THE OFFICE OF ENERGY EFFICIENCY AND
RENEWABLE ENERGY'S INTEGRATED RESOURCE AND
INFORMATION SYSTEM


TABLE OF
CONTENTS

System Development, Cyber Security and Contracting Practices

Details of Finding ............................................................................................................................1

Recommendations ..........................................................................................................................10

Management Reaction and Auditor Comments .............................................................................11

Appendices

1. Objective, Scope and Methodology .........................................................................................12

2. Prior Reports ............................................................................................................................13

3. Management Comments ..........................................................................................................14
OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY'S
INTEGRATED RESOURCE AND INFORMATION SYSTEM

System Development, Cyber Security and Contracting Practices

The Office of Energy Efficiency and Renewable Energy (EERE) had not adequately managed
the development and implementation of the Integrated Resource and Information System (IRIS).
In particular, we determined that officials had not implemented effective project management
practices when developing and implementing IRIS. EERE also had not implemented essential
cyber security controls designed to protect the system and the information it contained. In
addition, our review identified concerns related to contracting practices used to support the
selection and procurement of IRIS components, including the purchase of software licenses and
payments for labor to support development of the system.

                                 Project Planning and Execution

EERE had not adequately managed the development of IRIS. Despite spending more than $7
million to date on the development and implementation of IRIS, we found that project planning
and execution tools were not utilized to help ensure effective and efficient implementation of the
project. In particular:

   •   Contrary to Federal and Department of Energy (Department) project management
       guidance, EERE officials had not developed an approved project execution plan with
       established baselines that contained detailed information related to the overall cost of the
       project, schedule for implementing milestones and the scope of IRIS functions. Absent a
       project execution plan, officials had not determined the total cost of the project and were
       unable to track expenditures against expected costs for the system development effort, a
       critical element to ensuring effective project management. In addition, although officials
       initially developed a project overview illustrating when they expected to implement 12
       IRIS modules, they had not developed a detailed schedule for project implementation.
       EERE also had not developed an adequate cost/benefit and alternatives analysis prior to
       undertaking the IRIS project. Officials included a brief summary of potential advantages
       and disadvantages of utilizing existing systems to meet the program's needs as part of its
       EERE Enterprise IT Solution Recommendations document. However, we determined that
       the evaluation did not include a detailed review of which existing systems could meet
       users' needs or the potential costs of modifying existing systems. As noted by the Office
       of Management and Budget (OMB), one of the primary components of an appropriate
       analysis is determining whether existing resources can be modified to meet user needs.
       Subsequent to our review, EERE developed an approved Information Technology
       Services Office plan that incorporated milestones and estimates for cost and schedule for
       development of future IRIS modules through December 2014.

   •   Although the project was, in our view, a major information technology (IT) investment,
       EERE officials had not ensured that IRIS development efforts were supported by a
       capital asset plan even though development of a plan was recommended by EERE staff.
       According to OMB and Department guidance, including the Department's Guide to IT




Page 1                                                                         Details of Finding
      Capital Planning and Investment Control issued in September 2010, a major IT
      investment is defined as an investment that has significant program or policy
      implications, high executive visibility and/or high development, operating or
      maintenance costs. The guidance states that such IT investments should be supported by
      a capital asset plan that includes information for sound planning, management and
      monitoring of the project. However, because EERE did not develop and submit a capital
      asset plan to the proper oversight organizations as part of project planning efforts,
      appropriate officials at OMB and the Department's Office of the Chief Information
      Officer were not aware of the project and could not provide adequate attention to ensure
      that the IRIS development was effectively managed. In addition to lack of visibility at a
      planning level, individuals told us, and this appeared to be supported by documentation
      reviewed, that EERE categorized funds being used for IRIS development as costs for
      other unrelated systems, thereby limiting transparency into the true cost of the project.

  •   Effective planning and identification of user requirements, activities that are intended to
      provide detailed metrics and increase the likelihood that the system will meet user needs,
      were not completed and resulted in significant changes to the scope of the project and
      acquisition of more software licenses than necessary. EERE intended IRIS to be
      implemented using a commercial-off-the-shelf (COTS) solution requiring only minimal
      modifications. However, we found that a lack of understanding of user requirements
      resulted in EERE spending significant funds for customization of the software. As part
      of the justification for selecting the chosen vendor as the supporting software application
      for IRIS, EERE officials estimated that labor costs of approximately $2.75 million would
      be required to place 12 IRIS modules into operation. However, subsequent to the
      acquisition of the software, officials diverted from the original plan and decided to
      customize the software by as much as 90 percent, in large part, because of user requests
      for changes to the COTS solution. As a result, EERE spent approximately $3.6 million
      for labor costs related to custom development and/or configuration of the COTS
      platform. Despite expending more than originally planned, the program had only placed
      3 of the 12 planned modules into operation.

      In another example of ineffective planning, EERE anticipated a quick development and
      rollout of the IRIS project and purchased 1,000 software licenses at the beginning of the
      effort at a cost of about $1 million. However, we found that less than 200 licenses were
      used at the time of our review, which resulted in EERE paying about $675,000 for
      acquisition and maintenance of software licenses that were not utilized. A senior EERE
      official commented that the high number of software licenses was procured so that each
      EERE employee and external user would have their own license. However, without
      adequate project planning that included an analysis of when and how many licenses
      would be required, there was no basis to support the number of licenses purchased.
      Notably, prior to the acquisition of licenses for IRIS, certain EERE officials indicated
      that it would be easier to increase the number of licenses later rather than to decrease it.
      Furthermore, a contractor associated with the development of IRIS informed us that
      EERE should have discussed the number of licenses with the software vendor developers
      prior to procurement to determine the initial number of licenses needed. The same



Page 2                                                                        Details of Finding
       official indicated that based on past experience, EERE could have bought only 50
       licenses for development and testing until it was ready to deploy IRIS modules.
       Understanding user requirements early in the project can aid in the avoidance of re-work
       costs due to the lack of functionality and can remove a significant amount of guesswork
       in the planning stages. In response to our review, EERE significantly reduced the
       number of licenses maintained.

   •   Senior program officials regularly changed the scope and schedule for IRIS development
       efforts without fully appreciating and understanding the impacts to cost and operations.
       For example, management anticipated implementing all 12 IRIS modules by the first
       quarter of Fiscal Year (FY) 2014, and retiring 119 existing systems, resulting in
       estimated savings of nearly $1 million. However, only 3 of 12 modules had been
       implemented at the time of our review, and none of the 119 systems had been retired.
       While these were significant changes, there was no mechanism in place to formally
       approve the scope changes and related corrective actions to get the project back on track.
       We identified various other ad-hoc changes to IRIS that were not managed through a
       change control process, including one instance in which senior management reduced the
       number of modules to be implemented while at the same time extending the schedule.
       Subsequent to our review, EERE established a change control board in late December
       2013. Our review of supporting documentation noted that the change control board was
       established to prioritize, approve, plan and integrate requests for changes to standard
       operating procedures. However, we found that the documentation lacked detailed
       information related to information system changes, such as what types of changes should
       be approved by a change control board and how the impacts of changes would be
       evaluated.

The issues identified previously are similar to those reported during our review of Management
Controls over the Development and Implementation of the Office of Energy Efficiency and
Renewable Energy's Performance and Accountability for Grants in Energy System (OAS-RA-
10-14, July 2010). Although management concurred with our prior report recommendation to
ensure that effective project management practices are implemented as part of system
development and implementation efforts, the weaknesses discussed in our current report indicate
that significant additional work is needed. Notably, EERE management told us that it reviewed
prior Office of Inspector General (OIG) reports related to system development. In spite of this
review, we noted that officials still did not ensure that actions taken in regard to IRIS were
consistent with effective project management practices.

                                         Cyber Security

EERE had not implemented essential cyber security controls designed to protect the IRIS system
and the information it contained. We determined that even though the system was placed into
operation, various cyber security controls had not been implemented. In particular:

   •   EERE placed one of the IRIS modules into operation without ensuring that the system
       met necessary cyber security requirements. Specifically, the module became operable in
       July 2013 even though it lacked completed documentation to demonstrate that


Page 3                                                                        Details of Finding
      appropriate security controls were in place, including a risk assessment, system security
      plan, contingency plan and security controls assessment. In addition, while the system
      had been placed into operation, an authority to operate had not been granted by the
      responsible official. We noted that this was the second time the module was placed into
      operation without the necessary authority to operate. EERE initially placed this same
      module into operation in October 2012, but subsequently removed it from the network in
      February 2013, when it was discovered by program personnel that security requirements
      had not been considered and/or implemented. The authority to operate is important
      because it represents management's authorization to operate an information system and to
      explicitly accept the risk to organizational operations based on the implementation of an
      agreed-upon set of security controls.

  •   While an authority to operate was subsequently approved in August 2013, after the
      module was already in operation, we noted that important account management, audit log
      and configuration management controls still had not been addressed. Specifically, EERE
      support contractor tests of IRIS controls identified 34 failed controls, the vast majority of
      which were categorized as moderate risk failures. For instance, we noted numerous
      access control weaknesses continued to exist, including weaknesses related to user
      authorization and disablement and failure to implement password complexity rules in
      accordance with EERE policies. In addition, controls related to segregation of duties,
      multi-factor authentication for privileged users and mandatory security configuration
      management settings had not been implemented.

  •   When controls testing was performed, it was not always adequate to support the decision
      to authorize the system for operation. Contrary to National Institute of Standards and
      Technology (NIST) guidance, EERE's security assessment for the cloud computing
      software consisted primarily of online presentations and conference calls over a 2-day
      period and did not include detailed testing such as a vulnerability assessment. NIST
      states that a detailed review of existing controls should include not only interviews, but
      also the examination and testing of security controls implementation where applicable.
      In addition, EERE had not performed testing of security controls to be implemented by
      the cloud service provider such as controls related to access, account management and
      vulnerability scanning. In fact, officials were not permitted to retain security
      documentation from the vendor. As such, we were unable to fully evaluate the
      effectiveness of security over IRIS and determine whether additional controls should
      have been considered.

  •   EERE had not established and utilized separation of duties to ensure appropriate
      independence between individuals responsible for system security. NIST Special
      Publication 800-18, Rev. 1, Guide for Developing Security Plans for Federal Information
      Systems, states that the designated authorizing official, independent from the system
      owner, should approve the system for operation. However, we found that the authorizing
      official's supervisor was also the system owner, creating a conflict of interest and
      potentially resulting in pressure on the authorizing official to approve the system for
      operation even though controls were not adequately addressed. Our review of supporting




Page 4                                                                         Details of Finding
       documentation and discussions with Federal and contractor personnel confirmed our
       opinion that there was a sense of pressure on the authorizing official to place the system
       into operation without fully implementing all security controls.

   •   Contrary to Federal requirements, EERE officials had not established a service level
       agreement with the cloud service provider prior to initiating use of the system.
       According to NIST, agencies must ensure that service level agreements legally bind a
       cloud provider, broker or carrier to implement all applicable security controls outlined in
       Special Publication 800-53, Revision 4, Security and Privacy Controls for Federal
       Information Systems and Organizations. In addition, the Federal Chief Information
       Officers Council notes that service level agreements are necessary between a cloud
       service provider and customer to contractually agree upon the acceptable service levels
       expected from the provider. Furthermore, the Federal Chief Information Officers
       Council noted that as a best practice, service level agreements should clearly define how
       performance such as response time, resolution/mitigation time and availability is
       guaranteed and require the providers to monitor service levels, provide timely notification
       of a failure to meet the service level agreements and evidence that problems have been
       resolved or mitigated.

As noted in numerous OIG reports, weaknesses related to the Department's cyber security
program, including EERE's security program, unnecessarily increases the risk of compromise to
the Department's information systems and can result in extensive and costly recovery efforts.

                                      Contracting Concerns

Our review identified concerns related to contracting practices used to support the selection and
procurement of IRIS components, including the purchase of software licenses and payments for
labor to support development of the system. In addition, we noted instances of a senior EERE
official inappropriately providing direction to contractor personnel. Specifically:

   •   We identified potentially troubling discrepancies related to activities that occurred during
       the selection of the COTS software that raised concerns regarding whether the process
       was carried out in an appropriate manner. For example, EERE did not select potential
       software applications using an open and competitive process. Although EERE officials
       conducted a preliminary analysis that allowed participants to analyze and evaluate three
       different solutions, including the chosen vendor, several participants we spoke with stated
       that the software options were not necessarily comparable. Furthermore, during our
       review, several officials stated that they believed the decision to use the selected COTS
       software was made prior to preliminary analysis being conducted. In preliminary
       comments on our report, management stated that it followed an acquisition process
       approved by the Department's Office of Management. For instance, management
       provided information to support that it obtained approval to acquire up to $2.5 million in
       IT purchases without competition. However, EERE's preliminary cost estimate for
       integration and related software licenses amounted to nearly $9 million through FY 2017.
       As such, we assert that the selection of software supporting the IRIS initiative was not
       fully competitive.


Page 5                                                                         Details of Finding
   •   In addition to the software application issues, we noted that rather than going through a
       competitive selection process, EERE management modified and utilized an existing
       Golden Field Office IT support services contract for the IRIS development effort.
       However, the IRIS efforts may have been outside the scope of work included in the
       support contract. Specifically, a new task was issued that was unrelated to the original
       contract task and essentially doubled the cost of the contract. In addition, the Statement
       of Work associated with the original contract indicated that activities were only to be
       performed at the Golden Field Office and not Headquarters, where nearly all of the IRIS
       work was conducted. Although EERE management noted that the contracting officer
       determined that the IRIS development work was within scope of the existing contract, we
       believe that a competitive selection process may have enhanced the Department's ability
       to lower development costs and improve the likelihood of project success.

   •   Contrary to Department acquisition guidance, a senior EERE official inappropriately
       directed work to IRIS contractors and subcontractors even though the official was not a
       contracting officer or representative. In one instance, we determined that the official
       demanded that a specific subcontractor employee be kept on the IRIS project, directing
       Federal and contractor staff to "Please ensure this happens…I will not accept anyone
       else." In another instance, the same official inappropriately directed a subcontractor how
       to bill work against existing funds.

Implementation of Requirements and Performance Monitoring

The issues identified were due, in large part, to an accelerated planning, development and
deployment approach used by EERE officials to implement the IRIS project. In attempting to
expedite the implementation of IRIS, program officials had not appropriately followed Federal
requirements, Departmental guidance and best practices related to system development, cyber
security and contract management. In addition, we determined that performance monitoring over
the project was not adequate to help ensure its success.

                                     Policies and Procedures

EERE had not effectively implemented policies, procedures and best practices related to project
management to ensure that IRIS was developed and placed into operation on schedule and within
budget. In addition, officials had not implemented Federal and Department cyber security
requirements to ensure the system was operated in a secure manner. EERE officials also did not
always follow established requirements related to contract management.

Department Order 415.1, Information Technology Project Management, directs that officials
plan for implementation of IT projects using, among other things, project management plans,
alternative analyses and requirements documents. Although EERE's preliminary comments to
our report indicated that the program was not required to follow Department Order 415.1
because the life-cycle cost did not exceed $25 million, we determined that program officials had
not identified the total life-cycle cost for IRIS, and preliminary estimates indicated that about
$15 million would be spent in just the first 4 years of the project. In the absence of an adequate


Page 6                                                                         Details of Finding
cost/benefit analysis and detailed planning documentation, EERE could not ensure that the
selected alternative met its needs in the most effective, economical and timely manner. EERE
officials also had not ensured that they followed the Department's Capital Planning and
Investment Control (CPIC) process – a process designed to help make certain that IT investments
integrate strategic planning, budgeting, procurement and management in support of agency
mission and business needs. Although required by the Department's Guide to IT Capital
Planning and Investment Control, program officials did not develop detailed project
management plans that included schedule milestones, project scope and cost information. Thus,
EERE had no baselines against which to measure project success.

We also found that EERE had not effectively implemented Federal and Department requirements
related to cyber security over IRIS. In particular, officials had not ensured that appropriate risk
management controls were implemented related to the process for authorizing IRIS for
operation. Specifically, contrary to NIST requirements for ensuring independence between the
system owner and the authorizing official, we noted that EERE officials permitted the
authorizing official to report directly to the system owner in a subordinate/supervisor capacity,
creating a potential conflict of interest and lack of independence. Furthermore, program officials
did not ensure that basic security controls were implemented such as the development and testing
of system security plans.

EERE did not always follow established requirements for contract management. Specifically, it
appears that officials ignored or lacked an understanding of the Federal Acquisition Regulation
and Department guidelines regarding open competition and contract roles and responsibilities.
For example, while the Federal Acquisition Regulation states that the contracting officers shall
promote and provide for full and open competition in soliciting offers and awarding contracts,
EERE officials did not use a fully competitive process to acquire the COTS software. EERE
officials were unable to provide documentation to justify why full and open competition could
not be used. Also, although the Department of Energy Acquisition Guide states that Federal
managers must not direct a contractor to hire a particular individual, EERE officials we spoke
with lacked an understanding of the various roles and responsibilities of those involved in
communications with contractors outside of the scope of the contracting officer, contracting
officer representative or task monitor.

                                    Performance Monitoring

The lack of effective governance over the development effort resulted in confusion among team
members regarding the direction of the project and precluded EERE from obtaining needed
assistance from the Department's established IT management organization. Also, we identified
various weaknesses related to performance monitoring of system development and
implementation and related contracting practices. For instance, program officials had not always
implemented monitoring practices that could have ensured that IRIS efforts were well-defined
and changes were made in an organized manner.

EERE had not established a defined project governance structure to monitor performance, which
caused confusion among project team members. Although roles and responsibilities were
assigned in a draft project management plan, many Federal and contractor staff noted that they



Page 7                                                                         Details of Finding
were unsure of the chain of command and what was expected of them. Our review identified
significant turnover of project managers for IRIS. Specifically, we identified at least five
different officials who were delegated project manager responsibilities within a year or less.
Best practices highlight that frequent turnover of key project personnel can detract from project
success and contribute to an environment identified by confusion and low morale. In addition,
EERE failed to follow the Department's existing governance structure for IT management by not
reporting the project to the Office of the Chief Information Officer and the Department's
Information Technology Council. This could have enabled the Department to maintain visibility
over the status of the initiative's cost, schedule and technical baselines each quarter and help
ensure the project was managed in an effective manner. While we noted that certain IRIS team
members discussed the lack of CPIC compliance with EERE officials early in the project, no
action was taken to ensure compliance with the Department's process.

In addition to management turnover, several officials commented that changes to the scope and
overall direction of the project were not only being directed by the project manager but also from
the various team leads who, in the opinion of one contractor, were working independently from
one another. In addition, an official informed us that as the project progressed, a senior EERE
official started to communicate directly with subcontractors instead of going through the project
manager.

We also noted that, despite concerns raised by IRIS team members, EERE had not established
and implemented a formal change control board to monitor and support project management and
contract management decisions such as scope changes and changes to various contracts. Without
a change control board, representatives from all EERE organizations that could be affected by
the project were not always included in the decisions that could cause major impacts to mission
work. Subsequent to our review and more than a year into the project, EERE recently
established a change control board. However, the change control board was designed to focus on
standard operating procedures, and the documentation supporting the organization was not
specific in describing what types of system changes needed to go through the board or how the
impacts of changes would be evaluated. Absent a well-defined governance structure,
performance monitoring may not be effective and result in excessive costs and schedule delays
caused by reversed or modified decisions from conflicting input of various stakeholders.

Other Matters

During our review, it became apparent that the work environment and morale within EERE may
be significantly impacting program operations, including the IRIS development effort.
Throughout the course of our review, we spoke with over 30 individuals from EERE
Headquarters and the Golden Field Office, including Federal employees and support contractors.
Staff stated they were discouraged from providing constructive feedback to management. Many
individuals we spoke with also conveyed that they were pressured not to cooperate with the OIG
and/or expressed fear of retaliation by management. For example:

   •   Personnel expressed concern that EERE Headquarters management had asked employees
       to not be transparent to the OIG. During a meeting held near the end of our site visit at
       the Golden Field Office, we were notified by several individuals that EERE Headquarters



Page 8                                                                        Details of Finding
       management told personnel not to say anything negative to the OIG regarding the
       software product selected. These individuals noted that this deeply concerned them
       because during past audits, they had always been encouraged by other management
       officials to speak openly to the OIG.

   •   During the course of our interviews, several people expressed fear that EERE
       Headquarters management would know they talked to the OIG. For instance, one person
       refused to record their attendance at a meeting out of fear of retaliatory action by
       management. Several other individuals expressed concern that EERE Headquarters
       management would know who had spoken to the OIG based on what was published in
       our report. Whether real or perceived, the fear of cooperating with the OIG reflected an
       environment where individuals did not believe they were always free to express concerns
       regarding potential fraud, waste and abuse.

   •   We were told by numerous individuals that senior EERE officials did not support
       constructive feedback. For instance, one person described the work environment as
       "oppressive" and said that "yes, sir" was expected and feedback was not welcome. Other
       individuals informed us that a senior EERE official did not value the expertise of his
       employees and suggested that employees were reassigned if they presented opinions that
       contradicted the senior official. Furthermore, an official noted that if concerns were
       raised to management, the individuals became accused of being resistant to change.

Although we only highlighted a few examples, many individuals expressed similar concerns with
senior EERE leadership. Despite the actions of EERE management and the environment within
the office, the vast majority of EERE staff members we interviewed and/or sought data from
ultimately cooperated. And, we did not observe any overt actions to impede our review of
allegations made against EERE pertaining to the IRIS project. However, given the concerns
reported to us, we cannot determine with certainty whether we had full access to the full range of
critical project information.

Impact and Path Forward

Lacking an adequate cost/benefit and alternatives analysis prior to the development of the IRIS
project, the Department could not ensure that the selected alternative met its needs in the most
effective, economical and timely manner. Also, absent a well-defined schedule, scope and
budget that includes established baselines and deliverables, EERE runs a higher than necessary
risk of cost overruns and schedule delays for future IT developments, including the development
of future IRIS modules. In addition, without the submission of a capital asset plan, the project
may not be transparent to Department and other Federal oversight officials and may not receive
the necessary attention to ensure that the project is successfully completed. Furthermore, not
adhering to existing contracting policies and procedures for open competition may result in the
Department paying higher than necessary costs for the implementation of IRIS. Moreover,
without improvements to the work environment and morale within EERE, the IRIS development
effort, as well as program operations, in general, will continue to be adversely impacted.
In light of the growing number of security threats to the Department, including the recent
compromise of current and former employees' personally identifiable information, programs


Page 9                                                                        Details of Finding
must take into consideration and mitigate potential cyber security risks that may have an adverse
impact on the Department's systems and information. By introducing systems that have not
completed the necessary risk management framework, including detailed testing of cyber
security controls, the Department runs an increased risk that weaknesses within the systems
being deployed could be exploited by an individual with malicious intent. In addition, the lack
of a service level agreement between EERE and its software vendors may not allow the
Department to pursue legal penalties or compensation for unacceptable performance levels or
security non-compliance.

RECOMMENDATIONS

To more effectively manage its system development efforts, we recommend that the Deputy
Under Secretary for Science and Energy:

   1. Consider suspending the IRIS project until program officials develop and implement
      effective project management and cyber security practices.

   2. Ensure that project management controls are in place prior to proceeding with the IRIS
      initiative, including:

           a) Finalization of project management plans that includes detailed costs, scope and
              schedules to support the project;

           b) Development of cost/benefit and gap analyses, and review of the project by the
              Department's Information Technology Council; and

           c) Development of a capital asset plan and related reporting to the Office of
              Management and Budget.

   3. Implement necessary cyber security requirements for IRIS to ensure that it is secure to
      operate and adequately protects the Department's systems and information, including
      establishing service level agreements, as appropriate.

   4. Ensure that all EERE employees implement appropriate contract management practices,
      including competitive selection and appropriate contact between Federal and contractor
      employees.

   5. Perform an evaluation to determine whether the development contract for IRIS was
      adequately competed/fully competitive.

   6. Ensure that officials are aware of their duty to cooperate with the Office of Inspector
      General as outlined in Department orders through training, outreach or other activities, as
      appropriate.




Page 10                                                                     Recommendations
   7. Conduct an independent review of personnel matters within EERE to determine the
      extent of personnel management weaknesses and take any necessary disciplinary actions
      against individuals responsible for weaknesses identified.

MANAGEMENT REACTION

Management concurred with the report's recommendations and indicated that corrective actions
were initiated and/or planned to address the issues identified. For instance, management
requested that independent fact finding analyses be completed related to IT project management
including cyber security, acquisition and contract management and other matters related to the
workforce environment. Management noted that it will evaluate whether or not the actions taken
by EERE with respect to the IRIS project are sufficient to allow the project to continue in a
limited manner or whether it should be immediately suspended. Management commented that
the project's cyber security implementation and contract management practices will also be
reviewed to identify the underlying causes of weaknesses identified in our report.

Management indicated that it was taking immediate steps to reassure all employees of their duty
to cooperate with the OIG. Management commented that the Department will conduct an
independent analysis to determine the extent of personnel management weaknesses and will
work to identify appropriate actions, including any necessary disciplinary actions against
individuals responsible for weaknesses identified.

AUDITOR COMMENTS

The Department's planned corrective actions are responsive to our recommendations.
Management's comments are included in Appendix 3.




Page 11                                     Management Reaction and Auditor Comments
Appendix 1


OBJECTIVE

To determine whether the Integrated Resource and Information System development effort was
effectively managed by the Office of Energy Efficiency and Renewable Energy.

SCOPE

The audit was performed between July 2013 and April 2014 at the Office of Energy Efficiency
and Renewable Energy Headquarters in Washington, DC, and the Golden Field Office in
Golden, Colorado. The audit was conducted under Office of Inspector General Project Number
A13TG049.

METHODOLOGY

To accomplish our objective, we:

   •   Reviewed applicable laws and regulations pertaining to system development, Federal
       acquisitions and cyber security;

   •   Reviewed applicable standards and guidance issued by the Office of Management and
       Budget;

   •   Reviewed prior reports issued by the Office of Inspector General;

   •   Held discussions with program officials and contractor personnel from Department of
       Energy Headquarters and the Golden Field Office; and

   •   Reviewed available documentation related to the Energy Efficiency and Renewable
       Energy's Integrated Resource and Information System project, including project
       management, cyber security and contract documents.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives. Accordingly, we assessed
significant internal controls and the Department of Energy's implementation of the GPRA
Modernization Act of 2010 and determined that Energy Efficiency and Renewable Energy had
not established performance measures for system development. Because our review was limited,
it would not have necessarily disclosed all internal control deficiencies that may have existed at
the time of our evaluation. We did not rely on computer-processed data to satisfy our objectives.

An exit conference was held on April 2, 2014.




Page 12                                                    Objective, Scope and Methodology
Appendix 2


                                       PRIOR REPORTS

•   Audit Report on Naval Reactors Information Technology System Development Efforts
    (DOE/IG-0879, December 2012). The audit found that the Naval Reactors Program had
    taken a number of positive actions designed to resolve development issues associated with
    the Enterprise Business System (EBS). However, our review identified continuing system
    development issues. In particular, neither Naval Reactors officials nor the project contractors
    had adequately considered the use of a commercial-off-the-shelf product prior to upgrading
    and modernizing the financial components of EBS. In addition, we found that Naval
    Reactors had encountered delays in the EBS development effort, resulting in additional costs
    and a later than expected completion date; and, we found that the EBS project had not been
    reported to the Department of Energy and the Office of Management and Budget as a major
    information technology investment, as required. Despite spending approximately $10
    million of the budgeted $12.8 million for the procurement phase of the EBS development
    effort, officials had not submitted the required budgetary information to the Department of
    Energy or Office of Management and Budget, an action that could have allowed for
    improved performance monitoring.

•   Audit Report on Management Controls over the Development and Implementation of the
    Office of Energy Efficiency and Renewable Energy's Performance and Accountability for
    Grants in Energy System (OAS-RA-10-14, July 2010). We found that although the Office of
    Energy Efficiency and Renewable Energy's Performance Accountability for Grants in Energy
    (PAGE) System had been partially deployed and was being used by Energy Efficiency and
    Renewable Energy and grant recipients, it did not satisfy a number of important cyber
    security requirements. In addition, the deployment was not performed in accordance with
    Federal requirements. Specifically, the audit found that PAGE was placed into operation
    even though cyber security planning and testing was not completed, and basic project
    management practices were not followed during planning, development and implementation
    of PAGE. In particular, cost and schedule baselines were not created to help manage the
    project, and officials had not fully considered alternatives to a custom system development,
    practices which are designed to increase the efficiency of system development.

•   Audit Report on Management Controls over the Department's WinSAGA System for Energy
    Grants Management Under the Recovery Act (OAS-RA-10-05, March 2010). We found that
    certain security concerns with the system could increase the risk of compromise of grant
    data. Specifically, controls over system access were not appropriate, including assigning
    excessive user access privileges and inadequate password complexity. In addition,
    appropriate system backup and recovery procedures had not been implemented, including the
    storage of sensitive system information in an unsecured location and insufficient testing to
    ensure that the system could be restored in the event of a disruption. Further, security
    planning documentation and control testing were incomplete and contained several
    inconsistencies.




Page 13                                                                            Prior Reports
Appendix 3




Page 14      Management Comments
Appendix 3 (continued)




Page 15                  Management Comments
Appendix 3 (continued)




Page 16                  Management Comments
Appendix 3 (continued)




Page 17                  Management Comments
                                                                    IG Report No. DOE/IG-0905

                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
